<html>
<title> - EXAMINING THE STREAM PROTECTION RULE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                  EXAMINING THE STREAM PROTECTION RULE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                              THE INTERIOR

                                AND THE

                      SUBCOMMITTEE ON HEALTH CARE,
                   BENEFITS AND ADMINISTRATIVE RULES

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2015

                               __________

                           Serial No. 114-63

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-554 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
     William McGrath, Staff Director, Subcommittee on the Interior
                          Drew Feeley, Counsel
                        Melissa Beaumont, Clerk

                      Subcommittee on the Interior

                  CYNTHIA M. LUMMIS Wyoming, Chairman
PAUL A. GOSAR, Arizona               BRENDA L. LAWRENCE, Michigan, 
BLAKE FARENTHOLD, Texas                  Ranking Member
KEN BUCK, Colorado, Vice Chair       MATT CARTWRIGHT, Pennsylvania
STEVE RUSSELL, Oklahoma              STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama

     Subcommittee on Health Care, Benefits and Administrative Rules

                    JIM JORDAN, Jr., Ohio, Chairman
TIM WALBERG, Michigan,               MATT CARTWRIGHT, Pennsylvania, 
SCOTT DesJARLAIS, Tennessee              Ranking Member
TREY GOWDY, South Carolina           ELEANOR HOLMES NORTON, Distict of 
CYNTHIA M. LUMMIS, Wyoming               Columbia
MARK MEADOWS, North Carolina         BONNIE WATSON COLEMAN, New Jersey
RON DeSANTIS, Florida                MARK DeSAULNIER, California
MICK MULVANEY, South Carolina, Vice  BRENDAN F. BOYLE, Pennsylvania
    Chair                            JIM COOPER, Tennessee
MARK WALKER, North Carolina          MICHELLE LUJAN GRISHAM, New Mexico
JODY B, HICE, Georgia                Vacancy
EARL L. ``BUDDY'' CARTER, Georgia



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 8, 2015.................................     1

                               WITNESSES

The Hon. Janice Schneider, Assistant Secretary for Land and 
  Minerals Management, U.S. Department of the Interior
    Oral Statement...............................................     4
    Written Statement............................................     6

                                APPENDIX

Letters to Joseph Pizarchik, Director, Office of Surface Mining..    38
Statement for the Record submitted by the Interstate Mining 
  Compact Commission.............................................    53
Letter from U.S. Senate to Joseph Pizarchik......................    57
Responses Prepared by the Department of the Interior to the 
  Questions for the Record, from Chairman Lummis.................    60
 
                  EXAMINING THE STREAM PROTECTION RULE

                              ----------                              


                       Tuesday, December 8, 2015

                  House of Representatives,
      Subcommittee on the Interior, joint with the 
        Subcommittee on Health Care, Benefits, and 
                              Administrative Rules,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:32 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Cynthia M. 
Lummis [chairman of the Subcommittee on the Interior] 
presiding.
    Present from the Subcommittee on the Interior: 
Representatives Lummis, Gosar, Buck, Palmer, Lawrence, 
Cartwright, and Plaskett.
    Present from the Subcommittee on Health Care, Benefits, and 
Administrative Rules: Representatives Jordan, Walberg, Lummis, 
Meadows, Mulvaney, Hice, Carter, Cartwright, Norton, and Lujan 
Grisham.
    Also Present: Representative Johnson of Ohio.
    Mrs. Lummis. Well, we are going to start. There is a series 
of procedural votes that were unanticipated that are going on 
on the floor of the House this afternoon. We've decided not to 
let them interfere with our hearing, so I'm going to gavel in.
    I would ask members to take turns leaving and coming back. 
If you can't come back because you have a markup in another 
committee, please let us know so we don't drain ourselves of 
attendees.
    And we will now begin. So thank you for joining Chairman 
Jordan and me for this joint hearing by the Subcommittee on 
Interior and the Subcommittee on Health Care, Benefits, and 
Administrative Rules. Today, we'll review the Department of the 
Interior's Office of Surface Mining proposed stream protection 
rule.
    The proposed rule was published in the Federal Register in 
July following years of back-and-forth following a previous 
version of the rule that was finalized in 2008 and which was 
struck down by the courts. To date, the administration has 
spent several million dollars to revise regulations under the 
Surface Mining Control and Reclamation Act that govern coal 
mining.
    The proposed regulations originally were to reduce the 
harmful environmental consequences of surface coal mining 
operations in Appalachia. Since then, they have been expanded 
in scope to include operations nationwide in both surface and 
underground coal mining.
    OSM entered into memorandums of understanding with multiple 
States in 2010 to become cooperating State agencies in 
preparing a draft environmental impact statement under the NEPA 
process for the proposed rule.
    OSM allowed reviews of those proposed documents in 2010 and 
then shut out the States--this in spite of a public guarantee 
by then-Interior Secretary Salazar that all States would have 
an opportunity to review and comment before the draft EIS was 
published. My home State of Wyoming was one of the few States 
that did not throw up their hands in response to the way they 
were being treated.
    This failure calls into question whether OSM properly 
followed administrative procedures in drafting the rule. 
Further questions have been raised regarding the regulatory 
analysis underpinning the rule.
    J. Steven Gardner, president of the Society for Mining 
Metallurgy and Exploration, was part of a team put together by 
OSM to write the environmental impact statement and the 
regulatory impact analysis. When his team predicted thousands 
of job losses as the impact of the proposed rule in 2010, he 
states OSM pressured his team to change the numbers. When he 
refused, his contract was terminated.
    A subsequent RIA produced this year for OSM found less than 
300 jobs lost and with those mostly offset by jobs related to 
compliance with the proposed rule, while an assessment produced 
by the National Mining Association predicted between 55,000 and 
79,000 coal mining jobs lost. That's quite a range.
    The Assistant Secretary for Land and Minerals Management, 
Janice Schneider, is before the committee.
    And I appreciate your willingness to work with us, as we've 
had to repeatedly reschedule this hearing. And today we're 
going to have some interruptions, so I am grateful that you are 
here and willing to tolerate some of these interruptions. I 
really do look forward to hearing from you and the other 
members as we try to clarify what's going on here.
    We are in order. We now will recognize the ranking member.
    And I will let you know that, without objection, the chair 
is authorized to declare a recess at any time, although we hope 
to rotate in and out as these procedural votes continue.
    The chair now recognizes the ranking member, Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Madam Chairwoman. And thank you 
so much for holding this hearing.
    The proposed stream protection rule was drafted to preserve 
clean water and a healthy environment. This new rule is 
necessary because existing rules do not offer enough protection 
to communities from the pollution and long-term environmental 
damage caused by the coal mining waste.
    Mountaintop removal mining has caused serious and permanent 
harm to the environment. Hundreds of miles of streams have been 
destroyed by mine waste. Toxic chemicals from mine waste harm 
fish and other aquatic life. Humans and animals that consume 
fish from streams contaminated by mine waste are also harmed. 
Recent scientific studies have strongly associated high disease 
and mortality rates for residents in nearby communities with 
the harmful effects of mining practices.
    Current rules to protect streams from the harmful effects 
of mountaintop removal mining are over 30 years old. These 
rules were not developed with the science we have available 
today and have not prevented serious or persistent 
environmental harm.
    The new rule will accomplish a number of objectives, 
including increasing the monitoring of water quality during 
mining operations and afterwards, requiring mine operators to 
restore streams damaged by mining practices, and requiring 
financial assurance that long-term pollution discharges will be 
treated.
    This last point is important because current rules do not 
address this huge problem. Mining companies have simply walked 
away from the pollution they created without any financial 
liability to clean up the mess.
    Opponents of this commonsense rule express concerns about 
loss of jobs and other economic impacts. But, according to 
experts and testimony received today, the new rule will create 
as many jobs as those that are numbered lost. The net effect on 
jobs will be zero.
    The importance of clean water cannot be overstated. The 
survival of our planet depends on water--and I will say clean 
water. I wholly support the stream protection rule as one of 
the measures to maintain clean water and protect our 
environment.
    I want to thank you so much, Ms. Schneider, for 
participating today and providing information about this 
matter.
    Thank you, Madam Chair, and I yield back my time.
    Mrs. Lummis. I thank the gentlelady.
    The chair now recognizes Mr. Jordan, chairman of the 
Subcommittee on Health Care, Benefits, and Administrative 
Rules.
    Mr. Jordan. I thank the chairman for having this important 
hearing. I would yield back in an effort to get to Ms. 
Schneider's testimony so we can go vote and then come back and 
ask questions, if that's okay with the chair.
    Mrs. Lummis. Thank you, Mr. Chairman.
    And, Mr. Cartwright, the ranking member of the Subcommittee 
on Health Care, Benefits, and Administrative Rules, will be 
recognized if he is able to attend the meeting this afternoon.
    I will hold the record open for 5 legislative days for any 
member who would like to submit a written statement.
    Mrs. Lummis. And we will now recognize our distinguished 
witness. I'm pleased to welcome Ms. Janet Schneider, Assistant 
Secretary for Lands and Mineral Management at the U.S. 
Department of the Interior.
    Welcome, Ms. Schneider.
    Pursuant to committee rules, witnesses are sworn in before 
they testify, so please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Let the record reflect that the witness answered in the 
affirmative.
    Thank you. Please be seated.
    In order to allow time for discussion and questions, please 
limit your oral testimony to 5 minutes. Your entire written 
statement will be made part of the record.
    You may begin. You are recognized for 5 minutes.

             STATEMENT OF THE HON. JANICE SCHNEIDER

    Ms. Schneider. Thank you very much.
    Chairman Lummis, Chairman Jordan, and members of 
subcommittees, thank you for the opportunity to testify on the 
proposed stream protection rule.
    The proposed stream protection rule includes reasonable and 
straightforward reforms to revise 30-year-old regulations for 
coal mining. The proposed rule recognizes, as the Energy 
Information Administration does in its forecast, that coal 
mining and coal-fired electricity production will be a part of 
our energy mix for decades to come. And so the proposed rule is 
designed to keep pace with current science, technology, and 
modern mining practices while also safeguarding communities 
from the long-term effects of pollution and environmental 
degradation that endanger public health and undermine future 
economic opportunities.
    Every reclamation practice contained in the proposed rule 
has been successfully implemented by a mine operator somewhere 
in the country. Through this proposed rule, we are leveraging 
innovations of the industry by adopting best practices 
developed over the last 30 years to improve the regulations.
    I would like to stress that this is a proposed rule. It has 
been available for public review and comment for close to 3 1/2 
months, including one extension of the comment period that was 
already granted. We have actively sought public comment in some 
of the most impacted areas of the country, including to hold 
six public hearings in September.
    To date, there have been about roughly 94,000 comments 
received on the proposed rule. We are evaluating all of the 
comments received in detail in developing a final rule and are 
meeting with all State regulatory authorities who wish to 
further discuss their submitted comments.
    In 1977, Congress enacted SMCRA, which established a 
program to regulate coal mining. Over the years, OSMRE has 
adopted four different sets of regulations on the topic we are 
discussing today, most recently in 2008. Last year, however, a 
Federal district court vacated the 2008 rule due to Endangered 
Species Act violations and ordered reinstatement of the 1983 
version of the stream buffer zone rule. That rule was adopted 
over 30 years ago and is the base for State programs today.
    We've learned great deal over the last three decades about 
the impacts of coal mining operations and how to prevent it. We 
believe that the proposed rule strikes an appropriate balance 
between environmental protection, agricultural productivity, 
and the Nation's need for coal as an essential source of energy 
while providing greater regulatory certainty for the mining 
industry.
    OSMRE's analysis and outreach to stakeholders identified 
seven key areas for improvement to uphold the obligations of 
SMCRA. The time allotted does not allow for me to elaborate on 
all of these key areas, but they are described in my written 
statement submitted for the record.
    I would like to highlight the key aspects of the proposed 
revisions. They include a better understanding of baseline 
conditions at mining sites, improved monitoring, clarity on 
what constitutes material damage to the hydrologic balance 
outside of the permit area, and enhanced materials handling and 
restoration requirements designed to take into advances in 
technology, information, science, and methodologies over the 
last 30 years.
    We've used a highly experienced team to develop the draft 
regulatory impact analysis for the proposed rule. Among the 
many benefits, the draft RIA estimates that for the period from 
2020 to 2040 thousands of miles of streams will be in better 
condition if the proposed rule is adopted and nearly 60,000 
acres would be forested or reforested in an approved manner.
    Consistent with EIA forecasts, the draft RIA finds that, 
while coal will be a part of our energy mix well into the 
future, coal production is expected to decline even under 
existing regulations. This is being driven by market 
conditions, including the low price of natural gas, and fuel 
switching by utilities, which are, in and of themselves, 
anticipated to result in a further decline in demand for coal 
and reduced annual coal production of approximately 15 percent.
    The draft RIA estimates that, over the same period, the 
proposed rule's economic effects are minimal. Annual coal 
production is anticipated to be reduced by only 0.2 percent, 
and coal-production-related job losses will be largely offset 
by increases in compliance-related jobs, so essentially a wash.
    The draft RIA also estimates that industry compliance costs 
are small, as is the rule's impact on electricity production 
costs for utilities at 0.1 percent.
    Thank you for the opportunity to appear before the 
subcommittees today to testify about the proposed stream 
protection rule. The proposed rule reflects what Americans 
expect from their government--a modern and balanced approach to 
energy development that safeguards our environment, protects 
water quality, supports the energy needs of the Nation, and 
makes coalfield communities more resilient for a diversified 
economic future for generations to come.
    I would be happy to answer your questions.
    [Prepared statement of Ms. Schneider follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
     
    
    Mrs. Lummis. I thank the witness.
    And we have been joined by the ranking member of the 
Subcommittee on Health.
    Do you wish to make an opening statement, Mr. Cartwright?
    Mr. Cartwright. I do.
    Mrs. Lummis. You are recognized for 5 minutes.
    Mr. Cartwright. Thank you, Chairman Lummis.
    And welcome, Assistant Secretary Schneider. I appreciate 
your being here. I appreciate your testimony, and I look 
forward to the question period too.
    I come from a district in northeastern Pennsylvania, where 
we know a lot about coal mining. Coal brought jobs, prosperity, 
and economic development to northeastern Pennsylvania. 
Unfortunately, coal also left us a legacy of environmental 
catastrophe that we continue to struggle with even to this day.
    We've learned lessons about the dangers and costs of 
irresponsible mining practices in my district, and they inform 
the discussion that we have here today. My district is littered 
with coal refuse piles, most of which are decades or more old 
that every day poison local streams and rivers. We have mines 
that have been abandoned for generations that pollute streams 
and create hazardous conditions for my constituents.
    Coal runoff from these mines affects families, communities, 
and entire regions in Pennsylvania. And the companies that 
profited from the mining and created these messes are largely 
no longer around. And what that means is the public is bearing 
the burden, and it's slowly paying to clean up this 
environmental catastrophe.
    It pains me to see the same mistake being made with the 
streams and mountains of Appalachia. Once again, mining 
companies are destroying the environment. We'll leave it to 
future generations of taxpayers to pick up the pieces.
    Now, critics of the stream protection rule have called it 
Federal overreach, of course, but what this rules does is it 
provides basic standards to ensure we don't continue to destroy 
hundreds of mountains and thousands of miles of streams and 
rivers, which our children and our grandchildren will be left 
to clean.
    Despite the majority's claims to the contrary, this is not 
a war on coal. These regulations are long overdue. Some parts 
of SMCRA are over 30 years old. And we owe it to our 
constituents and our children to make sure that surface mining 
is done in a way that is safe and environmentally responsible. 
Mountaintop removal mining in Appalachia is already responsible 
for the destruction of over 500 mountains and approximately 
2,000 miles of stream channels, and we need to fix the problem.
    If anything, these regulations do not go far enough. While 
the proposal does improve the baseline data collection, enhance 
monitoring and bonding requirements, and restore stream 
functions, it falls short in other areas. And, in particular, I 
hope OSM will look at the many comments that have been 
submitted and strengthen the stream buffer rule.
    Now, OSM projects that the rule will improve water quality, 
forest and biological resources, recreational opportunities, 
while increasing carbon storage and reducing carbon emissions. 
And, according to OSM's calculations, all of these benefits 
will come at a net loss of a mere 10 total jobs.
    I am interested in hearing more from you, Ms. Schneider, 
about how OSM came to calculate the net loss of 10 jobs and how 
the offset of regulatory compliance jobs makes that up.
    Now, this rule is about taking reasonable steps to protect 
our environment and not pillaging the land in the quest for the 
cheapest solution possible while leaving our children and 
grandchildren to clean up the mess.
    I thank the chairman again.
    I commend the Office of Surface Mining for its progress, 
and I look forward to hearing more details about this important 
rulemaking from you, Assistant Secretary Schneider.
    Thank you, Mr. Chairman. I yield back.
    Mr. Meadows. [Presiding.] I thank the gentleman for his 
comments and certainly for his eloquent remarks.
    I'm going to go ahead and recognize myself. We're trying to 
keep this going while--I won't say ``your side'' but somebody 
is trying to adjourn the events. But I know it's not the 
gentleman from Pennsylvania. So we're going to try to keep this 
moving. I'll go ahead and recognize myself for 5 minutes for a 
series of questions.
    So, Ms. Schneider, help me understand a little bit the 
process. What I've been informed with is that this whole 
rulemaking process actually didn't really involve stakeholders, 
as has been, I guess, intimated, and then we have one public 
hearing--is that correct? Was it one public hearing?
    Ms. Schneider. No. The process has been, actually, quite 
extensive. And one of the reasons it's taken as long as it's 
taken is a real effort to try to engage a broad range of 
stakeholders.
    Mr. Meadows. All right. So why did the eight States 
eliminate themselves? I guess you're down to two States now 
from a NEPA standpoint. Why did they get out?
    Ms. Schneider. I can't really speak to why they 
terminated----
    Mr. Meadows. Why do you think they got out?
    Ms. Schneider. What they have said to us is that they had 
some concerns about the process. They wanted to be more 
engaged----
    Mr. Meadows. So did you address those concerns?
    Ms. Schneider. Yes, I think we are. What we did back in 
2010----
    Mr. Meadows. You are, or you have?
    Ms. Schneider. Both. And, if I may, sir----
    Mr. Meadows. Okay. Go ahead.
    Ms. Schneider. --back in 2010 and 2011, as I've been 
advised--and I was not at the Department for most of the period 
involved, but I've been advised that OSMRE provided chapters of 
the administrative draft of the EIS to the State regulatory 
authorities. As cooperating agencies, the States had the 
opportunity to provide comments. They did provide comments. We 
used those comments in developing the draft environmental 
impact statement that is out on the streets.
    And, through the course of this, we issued an advance 
notice of proposed rulemaking and a scoping process. We got 
over 50,000 comments on that----
    Mr. Meadows. Well, I know how that works. I've been 
involved in that, Ms. Schneider. I mean, I know, I mean, that 
goes out; you get tons of the comments from the Sierra Club and 
others. I mean, you know, the stacks are voluminous. But when 
it really comes to stakeholders that have a stake in it, so to 
speak--and I know you view them equally.
    So how many days did you give the States to respond, to 
review this?
    Ms. Schneider. I was not at the Department, so I----
    Mr. Meadows. But, I mean, obviously, you prepared for this 
hearing. So how many days were given?
    Ms. Schneider. Sir, I actually don't have that information.
    Mr. Meadows. Does your counsel behind you have it?
    Ms. Schneider. I don't believe so. They're not counsel.
    But what I can tell you is what we're doing on a going-
forward basis. I set up----
    Mr. Meadows. All right. Did you incorporate their comments 
in the EIS?
    Ms. Schneider. Yes, we did.
    Mr. Meadows. All of them? That's your testimony?
    Ms. Schneider. Sir, my understanding, what I've been 
advised by OSMRE is that the comments that were provided by the 
State regulatory authorities were incorporated into the new 
draft document.
    All of the States have an opportunity and many have 
submitted comments on that document. We are now in a process of 
a series of meetings with all of those State regulatory 
authorities to walk through their comments to make sure that we 
understand them. We've got at least 14 meetings that have 
either we've already started or are being scheduled. We are 
looking to schedule more.
    So I would say that, since I have been in this job, we are 
making a very concerted effort to engage what I agree are very 
important stakeholders in this effort. And I am committed to 
making sure that we understand the State perspectives on it.
    Mr. Meadows. So tell me about the public hearing in 
Baltimore then. I mean, why do you have a public hearing in 
Baltimore? I guess that's a hotbed of surface mining?
    Ms. Schneider. We did not have a public hearing in 
Baltimore, to my knowledge. We did meet with the State 
regulatory authorities at the IMCC meeting in Baltimore before 
the draft----
    Mr. Meadows. That's what I'm referring to. I mean, so you 
have it there. Why do you pick Baltimore?
    Ms. Schneider. Well, the IMCC picked Baltimore. And it was, 
as I understand it, one of their regular meetings. Because most 
of the State regulatory authorities were in Baltimore for that 
meeting, we wanted to facilitate their participation in these 
discussions, and so we had a meeting----
    Mr. Meadows. So would you say that that participation was 
robust there in Baltimore?
    Ms. Schneider. I did not attend that meeting. What was 
communicated to me was that there was robust participation by 
the State regulatory----
    Mr. Meadows. And so do you think it would be fair to 
characterize that all 10 of the States would be supportive of 
this rule and that they are happy with the process?
    Ms. Schneider. I would be reluctant to characterize anyone 
else's position on the rule.
    Mr. Meadows. Well, then why are we here today, I guess? I 
mean, you have to characterize something.
    Ms. Schneider. Yes.
    Mr. Meadows. And so let me just suggest----
    Ms. Schneider. But here's what I will say. I mean, we've 
got meetings set up. I've had several meetings with Wyoming 
already. We've done meetings with Ohio, with Maryland, with 
Oklahoma, with Indiana, with Pennsylvania. We've got meetings 
scheduled for--well, we had one with Virginia--scheduled for 
Illinois, North Dakota, Utah, Montana. We're working through 
trying to get another meeting up in Fargo with North Dakota. 
We're working on trying to get a meeting with Alaska in 
Anchorage.
    So we are really trying to make sure that we understand and 
that we hear directly from the State regulatory authorities 
about what their comments are and concerns are with respect to 
the rule so that we can make sure that we address those in an 
adequate way. I feel that's very important to accomplish, and 
that's why we're going through this process now that I'm in 
this position.
    Mr. Meadows. All right.
    Last question, and then I'll go to my good friend, Mr. 
Cartwright.
    So when we look at this particular--he was referring to 
jobs. And I guess I'm very concerned with the way that we came 
about the impact on jobs and with private contractors, or the 
lack thereof, or the changing thereof.
    So how confident are you that your projection on job loss 
gets an A?
    Ms. Schneider. I'm actually pretty confident that we've 
done----
    Mr. Meadows. So you've looked at the matrix on that?
    Ms. Schneider. I have reviewed the regulatory impact 
analysis----
    Mr. Meadows. No, the matrix of the--yeah, I guess the 
matrix of jobs. I mean, when you look at jobs, how do you 
figure out--because I talk to all of my coal States, and they 
say that this will kill them, and yet you're saying, no, it's 
pretty good.
    Ms. Schneider. Right. So let me step back and discuss a 
little bit about how we handled the regulatory impact analysis, 
which goes through what the impacts of the proposed rule would 
be and what the impacts on jobs will be.
    It's a very different process from the National Mining 
Association report. They were two reports, one in 2012----
    Mr. Meadows. So you're saying theirs is not accurate?
    Ms. Schneider. I do not believe theirs are accurate. I 
believe ours is more accurate.
    Mr. Meadows. And you base that on what?
    Ms. Schneider. I base it on reading their report. And----
    Mr. Meadows. So you're the official arbitrator of what 
creates jobs or not.
    Ms. Schneider. No----
    Mr. Meadows. I'm a small-business guy, so I find that very 
fascinating. But you go ahead. So you're the arbitrator of what 
creates a job or not.
    Ms. Schneider. No, I'm not the arbitrator of that. But when 
you look at the analysis that was done, the National Mining 
Association--I mean, there are a couple of different reports 
out there. One was a report that they issued in 2012, which was 
based on a preliminary version of the rule that actually did 
not reflect the version of the rule that is out on the street. 
So it's been revised since then. So those jobs----
    Mr. Meadows. So how many more jobs did you create with the 
revision?
    Ms. Schneider. If I may, sir?
    Mr. Meadows. Yep, you may.
    Ms. Schneider. So sometimes you'll hear the 7,000 job-loss 
number. That's based on the earlier reports that were leaked. 
We've changed the rule from what was out earlier, so that 
number is no longer--or it never was, because it was 
preliminary--but no longer a relevant number, from my 
perspective.
    The new National Mining Association job number that the 
chairman referenced in her opening statement makes some very 
significantly flawed assumptions. For example, it assumes that 
there would be no temporary impacts allowed at all with respect 
to material damage to the hydrologic balance. And it assumes, 
when you look at it, that it would halt most longwall mining 
and that it would strand reserves, and that's simply incorrect.
    So when they talk about their job numbers, their job 
numbers and the job-loss numbers are based on extremely flawed 
assumptions. Now, we understand that the way they came to this 
is through a survey of operators. There are no real metrics 
that are measurable. You know, it's a very subjective approach. 
So----
    Mr. Meadows. So, since there's no metrics----
    Ms. Schneider. So----
    Mr. Meadows. I'm going to go ahead and interrupt you 
because I'm way over time, and the gentleman from Pennsylvania 
has been gracious, but--I won't make it up to you, but I will 
recognize you here in just a second.
    But here is my concern in talking to operators. And we're 
not big coal territory, but we have mines in every single 
county that I have. If there is a way to deviate in the way 
that your rulemaking comes at, it is normally implemented in 
the harshest terms possible with the greatest impact possible. 
And that comes from the miners who actually do the work. And 
so, if there is not a good matrix, it becomes very difficult to 
quantify it.
    And, with that, I will recognize the gentleman from 
Pennsylvania so he can try to rebut everything.
    Mr. Cartwright. Thank you, Chairman Meadows.
    You know, Assistant Secretary Schneider, I mentioned in my 
opening statement that I come from northeastern Pennsylvania. 
If you fly into the Wilkes-Barre/Scranton International Airport 
and you look out the window as you land, you can see where the 
Lackawanna River flows into the Susquehanna River. And there's 
something there called the Old Forge borehole. And it's mine 
effluence spilling into the river, Ms. Schneider--60 million 
gallons every day flowing into the river.
    And it's so full of oxides, oxides of metals, that it's 
orange. And from 2,000 feet up, you can see this distinctive 
orange plume flowing into the Susquehanna River. And you think, 
my goodness, couldn't we have prevented something like that? 
And this is in the Chesapeake Bay watershed, so this finds its 
way into this national treasure we call the Chesapeake Bay.
    And, you know, what was it, about a month or 2 months ago, 
we had the Gold King Mine disaster, where everybody was saying 
a high state of outrage in this room about spilling 3 million 
gallons of effluent in Colorado. I repeat myself: It's not 3 
million gallons on a one-event basis. It's 60 million gallons a 
day happening in my district. And you can see it from the air.
    So making sure that coal mine operators act responsibly and 
provide for the future cleanup of what they do is something 
that strikes very close to my home.
    Now, a recent analysis by the Office of Surface Mining 
found that roughly 41 percent of the outstanding mining permits 
from West Virginia are held by a company whose parent 
corporation is now in bankruptcy.
    Are you familiar with that statistic?
    Ms. Schneider. I'm not familiar with that precise 
statistic, but I believe I understand where you're going.
    Mr. Cartwright. Well, part of what troubles me is that coal 
company executives are still getting big payouts, and workers 
and taxpayers are left holding the bag for these cleanup 
expenses. Wyoming and West Virginia officials are dealing with 
the issue with Alpha Natural Resources having filed for 
bankruptcy.
    How does this rule, Assistant Secretary Schneider, how does 
it address the problem of bankrupt coal companies walking away 
from their obligations and passing off the costs to the 
taxpayer?
    Ms. Schneider. Mr. Cartwright, this proposed rule does not 
specifically address that specific issue.
    The issue that you're referring to is an issue that is of 
great concern to the Department. It is the issue of self-
bonding and the ability of very large companies, if they have 
the financial wherewithal, to self-bond for their reclamation 
liability. This is a provision that is included in SMCRA, so it 
is an authorized portion of the Federal program and it is an 
authorized portion of many State programs.
    We are looking very, very closely at the issue. The 
situation with the Alpha Resources bankruptcy has raised very 
significant issues in the State of Wyoming, in particular, as 
well as in the State of West Virginia. OSMRE has an advisory 
role with respect to this issue. We stand ready to work with 
the States to try to address this issue. It is something that 
is of very serious concern to us but----
    Mr. Cartwright. I don't mean to interrupt you, but I want 
to move to the next question.
    Can you explain how trusts and annuities will take the 
place of conventional bond instruments to ensure funds are 
available for mining cleanup whether the company is around or 
not?
    Ms. Schneider. Well, the issue of appropriate financial 
assurances, at least from my personal perspective, is something 
we need to look at. We are certainly doing this on the offshore 
right now, where we have a great deal of liability to the 
American public with respect to aging oil and gas facilities.
    I think if there are ways that we can adequately provide 
for additional financial assurance in a flexible way that 
lowers costs for companies, we should be looking for those 
opportunities. Because I agree with your premise that the 
American public should not be left holding the bag on this.
    Mr. Cartwright. Do you believe that these instruments are 
sufficient, fully, to fund the restoration that can be 
necessary after mountaintop removal mining?
    Ms. Schneider. It would depend upon the nature of the 
instrument and the precise terms and what sort of financial 
backing there would be behind it.
    Mr. Cartwright. Okay. I thank you.
    And I yield back.
    Mrs. Lummis. [Presiding.] The chair recognizes Mr. Walberg 
for 5 minutes.
    Mr. Walberg. I thank the chairman.
    And thank you, Ms. Schneider, for being here with us.
    What threshold does OSM use in terms of lost jobs and lost 
coal production before it considers a proposal as not striking 
the proper balance? You mentioned that, for years to come, coal 
for energy would be on America's plate. What do you consider 
there when you look at it?
    Ms. Schneider. Well, candidly, there isn't a bright-line 
test for that. I mean, what we're trying to do in the proposed 
rule--and this is actually in direct response to the comments 
that we got from the State regulatory agencies--is to look at 
different areas of the country so that we have an understanding 
about how the proposed rule would have a potential effect on 
coal production as well as the jobs that may go along with it.
    Mr. Walberg. But no specific approach to that? Is that what 
I'm hearing, that you don't have a specific threshold that you 
use in determining lost jobs and lost production?
    Ms. Schneider. Well, we do look at those questions, but, 
you know, we don't say, well, if we lose X number of jobs--you 
know, there's not a bright-line litmus test.
    Mr. Walberg. So you didn't go out and look for a direct 
impact?
    Ms. Schneider. Oh, we do look for direct impacts, 
absolutely.
    Mr. Walberg. How do you do that?
    Ms. Schneider. Well, we're doing it through the regulatory 
impact analysis here, and we're doing it through the process 
that we're undergoing right now.
    I mean, again, what we've done is we've put drafts out for 
stakeholder review. Our expectation is that those interested 
parties, including the States, will provide additional 
information for us to consider.
    Mr. Walberg. But did you go directly to various coal mining 
operations, mining operations with different approaches to 
mining, different techniques and characteristics, and----
    Ms. Schneider. I have personally been to different mining 
operations across the----
    Mr. Walberg. --and directly asked them what impact this 
would be?
    Ms. Schneider. I have not done that previously, but I am 
doing it in the course of my meetings with the State regulatory 
agencies.
    Mr. Walberg. But you asked the State about their position 
on whether they thought there was a need for changing rules in 
mining operations?
    Ms. Schneider. Yes. We have those discussions based on the 
comments that they sent to us. I mean, when I've been out in 
coal country--and I've been to West Virginia and to Kentucky 
and Wyoming and Colorado, and we're planning a trip to Alaska, 
and I'm planning to go to Ohio--we'll be asking these 
questions.
    I mean, I think what's important to understand is we're 
really just in the middle of a process. We've done, you know, 
what we think is good work to tee up these issues and to 
present proposals, but I think the process is working. And what 
we're trying to do is get good information.
    We got great information from the State of Wyoming when we 
met with them. We are scheduling another video conference----
    Mr. Walberg. Well, I hope that continues.
    Ms. Schneider. --with Mr. Parfitt. And getting that 
information----
    Mr. Walberg. Okay.
    Ms. Schneider. --helps us refine our numbers and our 
thinking about what would be appropriate.
    I will say, I do care a lot about jobs. I used to work in 
the private sector. I was in the private sector for 13 years. 
I've worked on coal projects in rural areas----
    Mr. Walberg. Well, let me jump in, because I only have a 
minute and a half left here.
    In 2012, a 2012 congressional investigation that you're 
aware of found out that the Department of the Interior 
attempted to alter their own coal industry job-loss numbers, 
estimated at 7,000 at that time. According to your testimony, 
the rule will not only result in the yearly loss of only 260 
jobs, as opposed to 7,000, but produce a net yearly gain of 250 
jobs.
    Can you explain the disparity between your current estimate 
of 260 lost jobs and, I guess, also, the 250 compliance jobs--
those are government jobs--that will be gained as a result of 
this, versus the 7,000 you originally had?
    Ms. Schneider. Sure. And the answer is, I think, very 
simple. The 7,000-job number was based on a preliminary draft 
of the rule. The rule that is on the streets now is different, 
and so the jobs that are potentially impacted by this rule have 
changed.
    And the jobs that we're envisioning are not just government 
jobs. We're actually envisioning jobs that would be high-paying 
jobs in industry, including jobs like water-quality monitoring, 
materials handling, you know, heavy machinery jobs. I mean, 
these are well-paying jobs that we expect to continue, some as 
a result of this rule.
    Mr. Walberg. Well, we hope that's the case. I appreciate 
the information.
    And I yield back my time.
    Ms. Schneider. Thank you.
    Mrs. Lummis. The chair now recognizes Mr. Hice for 5 
minutes.
    Mr. Hice. Thank you, Madam Chairman.
    You know, one of the recurring themes that we see here in 
the Oversight Committee is government bureaucrats have little 
regard for the impact that their rules have on businesses and 
people all across this country. And we have seen it, I have 
seen it time and time and time again throughout the Federal 
Government. And, you know, now, as we come looking at the 
Office of Surface Mining, the stream protection rule, the same 
thing is happening all over again.
    And it's been brought up today, and I share great concern 
with the widely different figures as to how this is going to 
impact specifically the coal industry. According to what I've 
read from OSM, you believe that there will be about 260 mining 
jobs lost but 250 compliance jobs created, so, ultimately, 
costing 10 jobs.
    But here we go with compliance police. We don't need more 
compliance police. We don't need more Federal agents, Federal 
Government employees. We need to let people work and do what 
they do best without the government perpetually breathing down 
their necks, finding someplace that they have done some 
minuscule something wrong.
    We hear it over and over and over. And it's time we get the 
government off the back of businessowners and businesses and 
let them do what they are there to do. And you're looking at 
250 additional compliance police. It's just very disturbing.
    But then you look at the Department of the Interior, the 
parent agency of OSM, and they had a contractor estimate that 
their job cost would be upwards of 7,000. So you've got 10. 
Your parent agency says it could cost 7,000 jobs. And, you 
know, it just goes on and on and on.
    We find out, at least an investigation later determined, 
the Department of the Interior attempted to downplay the 
figures by using falsified information. But whatever the case 
may be, we have 10 jobs lost, 7,000 jobs lost, depending on who 
you talk to, when you talk to them.
    And then we come, as you mentioned earlier, the National 
Mining Association, the ones who ought to know the best as to 
the impact that this rule is going to have on their industry, 
and their numbers are vastly different. And I'm sure you know 
what those numbers are, but they estimate between 112,000 to 
280,000 jobs that will be lost because of this.
    And in the same study, they estimate that the lost value of 
coal produced could fall between $14 billion and $29 billion 
per year, and the loss of national tax revenue could be as high 
as $18 billion.
    I mean, the figures are all over the place, Ms. Schneider. 
And, you know, how in the world can you account for these 
differences? These are not minuscule differences. These are 
vast differences. How in the world can you account for this?
    Ms. Schneider. Well, let me--there's a couple of reasons.
    First, on the 7,000 jobs lost, as I've testified 
previously, that is an incorrect number. That number is not 
based on the proposed rule that is out on the streets today for 
public comment.
    With respect to the numbers that you shared from the two 
National Mining Association reports, the first set of numbers 
are based, again, on a preliminary draft that was leaked to 
stakeholders. Those numbers are not correct. With respect to 
the new National Mining Association report that was just 
recently issued this year, those numbers are also not correct. 
The high end of those numbers are about the entire job numbers 
of this entire industry nationwide. This rule will not shut 
down the mining industry in the United States.
    The real issue happening in the coal industry right now is 
an economic one. It is the abundance of natural gas. It is low 
prices of natural gas. It is fuel switching by utilities to 
natural gas. That is decreasing the demand for coal, and that 
is what is driving job losses in coal country.
    Now, the administration would like to work----
    Mr. Hice. My time has expired.
    Ms. Schneider. --with Congress----
    Mr. Hice. Let me just close up.
    Madam Chairman----
    Ms. Schneider. --on our POWER Plus initiative.
    Mr. Hice. Thank you very much. My time has expired.
    Madam Chairman, you know, I just wonder if this is just 
nothing other than a final push by Obama's administration, 
quite frankly, to give a final death blow to the coal industry 
before leaving office or if this whole thing ultimately just 
comes down to yet another reckless government bureaucracy 
playing fast and loose with American jobs.
    And, with that, I will yield back. Thank you.
    Mrs. Lummis. The chair now recognizes Mr. Jordan for 5 
minutes.
    Mr. Jordan. Thank you, Madam Chair.
    Ms. Schneider, when you started this process, my 
understanding is you invited several of the impacted States to 
participate. Is that accurate?
    Ms. Schneider. Yes, sir.
    Mr. Jordan. How many States did you invite?
    Ms. Schneider. I don't have that number, but we can provide 
it for the record. I was not at the Department at that time.
    Mr. Jordan. My understanding is it was 10 States that 
entered into a memorandum of understanding. Is that accurate?
    Ms. Schneider. I don't have that number but can provide it 
for the record, sir.
    Mr. Jordan. Did you enter into a memorandum of 
understanding with some number of States?
    Ms. Schneider. Yes, sir.
    Mr. Jordan. Okay.
    Ms. Schneider. That is my understanding.
    Mr. Jordan. You did. Okay. Do you happen to know how many 
States entered into a memorandum of understanding? I won't 
say----
    Ms. Schneider. No, sir, I do not now.
    Mr. Jordan. Okay.
    Did any turn down your offer to--when you offered States to 
participate in the process and enter into an agreement with 
you, did any of them turn it down? Do you know that much?
    Ms. Schneider. I was not at the Department at that time. I 
do not know, sir.
    Mr. Jordan. Okay.
    Of those States that did enter into a memorandum of 
understanding with you at the start of this process, how many 
of them still have a memorandum of understanding with you?
    Ms. Schneider. One, the State of Wyoming. And I commend 
them for their efforts at staying at the table.
    Mr. Jordan. So my understanding is 10 States were invited. 
All of them entered into a memorandum of understanding. At some 
point, a significant number--well, nine of them said, we no 
longer want to work with you guys. Would that be accurate?
    Ms. Schneider. Yeah, again, I don't--I don't know that the 
numbers are correct.
    Mr. Jordan. Well, it's kind of interesting, Ms. Schneider, 
you know that one State----
    Ms. Schneider. I do know----
    Mr. Jordan. --still has it, but you said, oh, there's other 
States that we offered to work with that did enter into a 
memorandum, but I can't remember that number. The number we 
have is 10.
    Ms. Schneider. Well, I will stipulate with you, for 
proposes of the testimony, that that is the correct number.
    Mr. Jordan. Okay. Okay. So we got that.
    So you had 10 States entered into this process at the start 
when you were putting together the rule. When you get to the 
end of the process or somewhere during the process, 90 percent 
of the States you've entered into an agreement with said, we 
don't like where this is going, they're not really working with 
us. And only one State is left.
    Is that accurate? Well, you might not agree with the 
opinion in there, but the numbers are accurate, right?
    Ms. Schneider. A number of the States that OSMRE had 
previously entered into memoranda of understanding to be 
cooperating agencies in the NEPA process have terminated their 
participation. We have sent a letter to them asking them to 
reengage. I would like to have them reengage. I value their 
participation in the process, and I would like to see them do 
that.
    Mr. Jordan. No, I'm sure you would, but the fact is they 
don't want to reengage. And they have been so focused on not 
reengaging, so disappointed in the process, that nine of them 
said, we want out.
    Ms. Schneider. Right, but I would add----
    Mr. Jordan. Now, let me ask one other question, too, then. 
So isn't there an environmental impact statement that also 
comes out that you guys put together at the end of this 
process, as well, right?
    Ms. Schneider. A draft of the environmental impact 
statement has been issued. It was open for the public comment 
period of about 3 1/2 months, and----
    Mr. Jordan. And how many of those 10 States that originally 
signed the memorandum of understanding have signed on to the 
environmental impact statement?
    Ms. Schneider. Seventeen States did provide comments on the 
draft environmental impact statement.
    Mr. Jordan. No, I'm talking about the 10 States that 
originally started with you. Did any of them sign on and say 
they agreed with the environmental impact statement?
    Ms. Schneider. We're still working through their comments. 
I'm not aware of any States that have said, put our seal on the 
cover, if that's what you're asking me.
    Mr. Jordan. That's exactly what I'm asking. Because didn't 
a couple of States specifically say, don't put our seal on the 
cover? Is that right?
    Ms. Schneider. I do know that Wyoming took that position.
    Mr. Jordan. Okay.
    So here's just simple numbers. When you start the process, 
10 States enter into an agreement with you to work 
cooperatively with you. Through the course of the process, 
judging by their action, 9 of those 10 States said, we want out 
of this, we don't like where this is going. Then the final 
statement is an environmental impact statement, and none of the 
10 States will sign that or give their stamp of approval.
    So 10 percent of the people--90 percent wanted out. 
Throughout the process, one hung in there, hoping, praying it 
might be somewhat decent. And then, when you get to the final 
statement, not one single State that started this process with 
you is actually in agreement with the final environmental 
impact statement.
    So that's like, I remember I had this guy one time who came 
to me and he said, you know what--a guy who ran a business--he 
said, ``I've been in an argument with six different people 
today. I don't know what's wrong with all these people.'' And I 
kind of looked at him, and I said, ``I don't either,'' because 
if I'd have said something, I'd have been the seventh, right?
    So when you've got 10 States you enter into an agreement 
with and none of them will sign the final product, that's a 
problem.
    Ms. Schneider. I would clarify, it's just a draft product. 
We are just in the middle of this process.
    Mr. Jordan. A draft product that none of them will sign, 
and 9 out of 10 States who started with you said ``I want out'' 
even before you came up with the draft product.
    Ms. Schneider. I will say that a lot of States are willing 
to meet with us. We either have met with them or we're 
continuing to schedule meetings with them. I understand your--
--
    Mr. Jordan. Well, you better schedule a lot more because--
--
    Ms. Schneider. I understand your concern. I was not----
    Mr. Jordan. --you certainly don't have much buy-in right 
now, Ms. Schneider.
    Ms. Schneider. --at the Department at that time, and what 
I'm trying to do is make sure that we have a good process going 
forward.
    Mr. Jordan. Thank you.
    Mrs. Lummis. The chair now recognizes herself for 5 
minutes.
    And, Mr. Chairman, before you leave, I'll tell you why the 
State of Wyoming chose to stay in this.
    Mr. Jordan. I figured you'd have something to stay.
    Mrs. Lummis. They did it to preserve their ability to 
engage in litigation.
    And that's the problem with this process. The State of 
Wyoming chose to stay in simply to preserve their right to sue 
the Federal Government because the process was not cooperative.
    And therein lies the problem. OSM agreed for the States to 
become cooperating agencies under NEPA, which means States are 
supposed to be fully involved in preparing a draft EIS and 
regulatory impact analyses. But OSM did not consult with States 
in preparing these documents. The State of Wyoming complained. 
Other States complained.
    Wyoming's Governor's staff say that the Department just 
brings State agencies in, reads a list of proposals, and then 
allows States a few minutes to comment before ending the 
meeting. That's not cooperating. That is just a pro forma 
process and elevating form over substance. The substance of 
cooperating is give-and-take and a discussion where both sides 
are given due deference to their concerns.
    And a process where 10 States enter into the process and 
only 1 State comes out at the end and that State does so simply 
to preserve the right to sue is, in my mind, a failed process. 
And so I would just remark to you that this process has failed 
and that it would be wise to go back and start over and go 
through a truly cooperating status with States so that they 
feel like they are part of the discussion.
    And I can tell you from just the last month in the House of 
Representatives, it makes a huge difference. Just the change in 
the new Speaker, Speaker Ryan, has brought about that process 
of cooperation that didn't exist here before he was Speaker. 
And his Speakership has already proven the benefits when you 
allow your stakeholders to be part of the discussion. It really 
works.
    And you will find that States will be marvelous partners if 
there is truly a cooperative process rather than a command-and-
control process. And when States are brought in and given 5 
minutes to respond to a list of possibilities that are issued, 
it just doesn't work. That's nobody's definition of 
cooperation.
    And the States are the ones with the boots on the ground. 
They have their own processes to deal with the very issues that 
you are trying to rectify.
    And so I'm just admonishing you in a nice way, because I 
know you're trying, and I know that a lot of this happened 
under a previous Secretary. But what you've done with this rule 
is not cooperating agencies between the Federal Government and 
the States. It's just a check-the-box, and the process is 
really broken.
    We were broken around here. We're fixing ourselves under 
Speaker Ryan. And so I know you can do it. If we can do it, you 
can do it. And I know I sound like a weight-loss ad when I say 
that, but government agencies can reform themselves.
    So, with that, I would recognize the gentleman from 
Colorado, Mr. Buck, for 5 minutes.
    Mr. Buck. I thank the chair, and I have no questions.
    Mrs. Lummis. The chair recognizes the gentleman from 
Arizona, Mr. Gosar, for 5 minutes.
    Mr. Gosar. Hi, Ms. Schneider. I'm from Arizona, a State 
with a rich history and expertise in mining. Arizona is 
sometimes called the Copper State. It is well-known because 
it's a leader in copper mining.
    While many don't consider Arizona to be a coal State, 
Arizona generates 40 percent of its electricity from coal and 
produces more than 8,000 tons of coal a year. Coal mining in 
Arizona supports approximately 4,000 jobs state-wide.
    Arizona is also known for its water or sometimes lack 
thereof. The State is home to hundreds of dry rivers--streams 
that appear in a flash during a rainstorm and disappear as fast 
as the clouds change. These are also called ephemeral streams, 
though the exact definition of what that means varies widely.
    The SPR adopts the EPA's overreaching definitions of 
streams developed for the waters of the U.S. rule, which has 
been blasted by its many authors for serious scientific and 
legal deficiencies. This committee has heard testimony under 
oath regarding the dubious and questionable science of the 
waters rule. In fact, the scientific foundation of the waters 
rule is in such shambles that the rule has been stopped 
nationwide by a Federal appeals court.
    Now, Ms. Schneider, did the Department or Office of Surface 
Mining conduct its own analysis of a definition of ephemeral 
streams or adopt the EPA's definition outright? Which one was 
it?
    Ms. Schneider. Thank you for that question.
    The proposed rule does not adopt the EPA waters of the 
United States----
    Mr. Gosar. So you did your own?
    Ms. Schneider. --definition.
    No, we used the Corps of Engineers' definition under its 
nationwide permit program.
    One of the things that we wanted to do was to make sure 
there weren't a whole bunch of new definitions for people to 
have to grapple with, and to try to use a consistent set of 
definitions. In discussions with stakeholders, most agreed that 
the U.S. Army Corps of Engineers' definition in the nationwide 
rule would be the one that makes the most amount of sense 
because, at the end of the day, the Army Corps would be the one 
determining whether there was a jurisdictional water of the 
United States.
    Mr. Gosar. So, then, who made the decision to base the SPR 
on science underlying a rulemaking that's not yet final?
    Ms. Schneider. We did not. Those rules are adopted every 5 
years. Those rules are final and are in place.
    Mr. Gosar. So who actually made that decision?
    Ms. Schneider. I made that decision.
    Mr. Gosar. Okay.
    Now, do you intend to implement the SPR if questions 
regarding the scientific basis for the clean water rule remain 
unresolved?
    Ms. Schneider. Again, the proposed SPR does not adopt the 
waters of the United States rule that is in----
    Mr. Gosar. So you're going to go ahead?
    Ms. Schneider. Well, we have a proposed rule on the street. 
We're taking comments on whether stakeholders--we've taken 
comments, I should say, on whether stakeholders think that our 
proposal to use the Corps' definition in its nationwide permit 
program is an appropriate----
    Mr. Gosar. So you do intend to implement the SPR if the 
clean water rule is overturned by the courts?
    Ms. Schneider. It has not been overturned by the courts, 
and it's not under challenge. The definition that we're 
proposing to use----
    Mr. Gosar. But if it is overturned by the courts, you're 
going to go forward?
    Ms. Schneider. And so we'll take a look at the public 
comments and get a sense of whether folks think that is the 
appropriate approach to take or not.
    Mr. Gosar. Okay.
    And, in your experience, you would say, yes, go forward? I 
mean, it seems like you want to propose the rule----
    Ms. Schneider. No, I want to make sure I understand what 
the comments from the stakeholders say----
    Mr. Gosar. Yeah. If they----
    Ms. Schneider. --before I make any decisions on a 
particular direction to go forward in.
    And I have a very open mind about this process. I think 
it's a good process. We've gotten over 94,000 comments on the 
proposed rule, and, you know, we're still in the process of 
going through all of those.
    But I want to make sure that I personally understand those 
comments before I'm in a position to say I want to go forward 
with a particular approach.
    Mr. Gosar. Madam Chair, I have another section, so I'll 
wait for another chance, a turn, before I get started with my 
next line.
    Mrs. Lummis. The chair now recognizes the gentleman from, 
Mr.--excuse me, from Ohio, Mr. Johnson, who is not a member of 
the Oversight Committee. We thank him for his interest in this 
hearing topic. And I would ask unanimous consent that Mr. 
Johnson be allowed to fully participate in today's hearing.
    Without objection, so ordered. With that, Mr. Johnson, you 
are recognized for 5 minutes.
    Mr. Johnson. Thank you, Madam Chairman. And, Ms. Schneider, 
thanks for joining us today. I know that you're here to try and 
shed light on this very, very important topic. I've been 
involved in the discussion and the debate on the stream 
protection rule now for almost 5 years myself. I think that may 
even be longer than when you got involved with it.
    Ms. Schneider. Yes, that would be the case, sir.
    Mr. Johnson. What I would like to do, because we're going 
to get into some topics of detail here, can we have an 
agreement because we're both looking to find the truth, if I 
ask you a question and you don't understand the question, just 
ask me to clarify the question. Because I'm going to be asking 
you a number of questions. Is that an agreement that you and I 
could go forward with?
    Ms. Schneider. Yes, sir.
    Mr. Johnson. Okay. Great. Assistant Secretary Schneider, 
you know, OSM's own internal analysis of an earlier and much 
more modest version of the stream protection rule showed that 
more than 7,000 coal mining jobs, coal miners would lose their 
jobs in 22 States. Now, Secretary Jewell claims that the new 
rule will cost approximately 200 miners their jobs, despite the 
fact that this new rule now amends or modifies 475 existing 
rules and adds new rules on top of that. Furthermore, Secretary 
Jewell defines these job losses as minor.
    In my view, if there is one coal miner in my district that 
is highly dependent upon coal for their livelihood, if there's 
one coal miner that loses their job, it's too many. And we got 
an independent analysis derived from data gathered at 36 
operating mines, not hypothetical model mines, but operating 
mines, that puts the job loss estimate at upwards of 80,000 
coal miners with this rule.
    Now, I understand that OSM determined that job loss will be 
minimal because, supposedly, according to the Secretary, high-
wage coal jobs would be replaced by jobs created just to comply 
with its rule, with this rule. So let's say, for a second, 
let's just say that that is true. Where would these new jobs be 
created?
    Ms. Schneider. Thank you for that question. Let me just 
step back and respond to a couple of things that you said.
    Mr. Johnson. No, I want you to answer my question, Ms. 
Schneider. That was the agreement we had. Where would these 
jobs be created? Would they be created in the communities where 
the coal miners lost their jobs or would they be created 
somewhere else?
    Ms. Schneider. The jobs that would be, that we are, as I 
understand the analysis, the jobs that would be created would 
be created in the coal communities.
    Mr. Johnson. Ms. Schneider, there's no industry in those 
coal communities except those coal mines. So what kind of high-
paying jobs would be created in those communities where there's 
no industry other than coal production?
    Ms. Schneider. I'll give you, let me, if I may, give you an 
example. One of the proposed, and, again, I stress these are 
proposed provisions, but one of the proposed parts of the rule 
would provide for increased materials handling and placement of 
coal refuse. So things like shoot and shove would no longer be 
allowed. Instead, individual heavy----
    Mr. Johnson. How many----
    Ms. Schneider. Sir, if may I finish.
    Mr. Johnson. I've got limited time.
    Ms. Schneider. We have heavy machinery operators----
    Mr. Johnson. Ms. Schneider, I've got limited time. I've got 
limited time.
    Ms. Schneider. --would be the ones doing that----
    Mr. Johnson. I've got limited time. We had an agreement, if 
you don't understand the question, ask. I asked you where would 
the jobs be created?
    Ms. Schneider. They would be materials handling jobs. They 
would be----
    Mr. Johnson. I didn't ask you what kind of jobs. I asked 
you where would the jobs be created?
    Ms. Schneider. In the communities where there are coal 
mining operations.
    Mr. Johnson. Have you visited operating coal mines?
    Ms. Schneider. Yes, sir, I have.
    Mr. Johnson. You have. And you know what those communities 
look like?
    Ms. Schneider. Yes, sir, I have.
    Mr. Johnson. Okay. Well, then I defer to you on that one. 
Because I visited them too. And these high-paying jobs that 
you're talking about replacing would not be the case.
    One final quick question, does--and going back to what my 
colleague from Arizona was asking, does the stream protection 
rule adopt the definitions of streams, including ephemeral 
streams that are included in the EPA's clean water rule?
    Ms. Schneider. No, sir. My understanding is that we propose 
to use the U.S. Army Corps of Engineers definition and its 
nationwide permit program.
    Mr. Johnson. Where does the Army Corps get their rule? Did 
the EPA get their rule from the Army Corps?
    Ms. Schneider. No, sir. My understanding is that the Corps 
every 5 years issues new regulations, identifying nationwide 
permits under section 404 of the Clean Water Act. That's my 
understanding of the----
    Mr. Johnson. You're telling me that there is no consistency 
between the rules of the waters of the U.S. and the EPA and the 
definition of streams as contained in the stream protection 
rule?
    Ms. Schneider. Our approach to consistency is to make it 
consistent with the Army Corps' regulations, sir.
    Mr. Johnson. And that the Army Corps is different than the 
EPA clean water rule? Is that your assertion?
    Ms. Schneider. I'm not sure I understand your question.
    Mr. Johnson. I'm asking you does the stream protection rule 
use the same definition for streams, including ephemeral 
streams, that the waters of the U.S., that EPA's rule does? 
Wherever it's derived from, are they the same?
    Ms. Schneider. To the best of my knowledge here today, I do 
not believe that's the case.
    Mr. Johnson. Would you take that question and get back to 
the committee?
    Ms. Schneider. We will do that yes.
    Mr. Johnson. Because my concern is this, there's been a 
Federal stay on waters of the U.S. rule by the EPA, the clean 
water rule. My question would be what would happen to the 
stream protection rule if that rule is determined to be illegal 
by the Federal courts? Where does that leave the stream 
protection rule? So would you take that question for the record 
as well?
    Ms. Schneider. Yes, sir, we will.
    Mr. Johnson. Thank you very much. Madam Chair, I yield 
back.
    Mr. Buck. [presiding.] The gentleman yields back. The chair 
recognizes the gentleman from Arizona.
    Mr. Gosar. Thank you again, Chairman. In addition to 
copying flawed definitions from the court to stayed Lotus rule, 
the SPR, or the stream protection rule, simply duplicates 
existing regulations and programs from other agencies. Even in 
Washington, a city known for ego and Tudor floors, the stream 
protection rule is a shameless attempt by OSM to take over the 
roles of the EPA, the Army Corps of Engineers, and, most 
egregiously, States as the primary protector of water. The 
rulemaking process behind the SPR, the stream protection rule, 
exposes the pursuit to more about extending the agency's 
bureaucratic reach than improving the environmental 
performance.
    Now Ms. Schneider, as I said before, coal mining supports 
4,000 jobs in my State which are threatened by this onerous 
rule. So how can OSM officials justify such a politically 
motivated, scientifically questionable rule that is clearly 
more about protecting your job in Washington than improving the 
quality of life for everyday Americans?
    Ms. Schneider. There is no intent or provision in the 
proposed rule that would take over the EPA program, the Corps 
program, or State programs. I do think that there has been some 
confusion about our proposed definition of material damage to 
the hydrologic balance and what that would require. I think 
that----
    Mr. Gosar. And do you see why there's that confusion?
    Ms. Schneider. Well, you know, I think that this is what 
this process is all about. You know, we put something out on 
the street. We're getting good comments back on that. But, you 
know, we're, you know, the States under our proposed rule, if 
it goes final, the States will have plenty of flexibility to 
tailor the rule to their specific needs.
    Mr. Gosar. Well, I'm glad you went that way because this is 
really important to my constituents. So can you tell me how 
many times you personally met with leaders and families from 
actual coal producing regions to hear their concerns?
    Ms. Schneider. I cannot give you today an actual number. 
But I have been on numerous trips to coal country. I used to 
actually represent Arizona Public Service Company. So I 
understand very well----
    Mr. Gosar. I'm not asking for that part. I'm asking for 
your----
    Ms. Schneider. But what I'm saying is I have worked with 
coal miners in my private capacity, where I was----
    Mr. Gosar. That's a little bit different than what it is 
under your current status.
    Ms. Schneider. But it does inform how I think, frankly.
    Mr. Gosar. Well, that you have a different hat on, don't 
you?
    Ms. Schneider. I do have a regulator's hat on. But I do 
understand the importance of high-wage jobs to rural 
communities.
    Mr. Gosar. I'll give you that so----
    Ms. Schneider. So, sir, if I might finish, I have been to 
Appalachia. I've been down to West Virginia. I've been to 
Kentucky. I've been to Colorado. I've been to Wyoming. And I'm 
planning a bunch more trips. I do want to make sure that we get 
this right. And on each of those trips, I meet with multiple, 
multiple coal miners.
    Mr. Gosar. I got a limited amount of time. So let me 
redefine that a little bit.
    Ms. Schneider. Sure.
    Mr. Gosar. So any time or any public comment hearings that 
actually occurred in coal country that you participated on or 
hosted?
    Ms. Schneider. Yes, sir. I was actually in Gillette, 
Wyoming, earlier this summer for listening sessions on coal-
related issues.
    Mr. Gosar. Okay. Are you prepared to assure me and members 
of this committee that the rule that the OSM finalizes will not 
lead to further job losses and economic hardship in my coal 
producing communities?
    Ms. Schneider. We are going to take public comment on the 
rule. We're going to get a better understanding of that. I do 
want to make sure that we have a fair and balanced rule that 
will protect jobs and also adequately protect the environment.
    Mr. Gosar. Okay. So tell me how that works in Indian 
Country? Tell me how you're going to, when this goes into 
effect, you're actually going to kill the only aspect that 
actually is a good producing job. What are you going to do for 
that?
    Ms. Schneider. Well, as you know, OSM already directly 
regulates in Indian Country. So the big coal producing Nations 
are Navajo, Hopi, and the Crow. And we will work with them. I 
mean, just as we, as you know, there have been some recent 
numerous approvals, they're not numerous but there have been 
recent approvals to allow the Four Corners Power Plant in that 
Navajo and the adjacent mine to move forward and to expand.
    And so I think the Department is very mindful of jobs and, 
in particular, jobs in Indian communities.
    Mr. Gosar. Well, but when you take a look at the effect of 
this rule, along with the clean power rule, along with all the 
rest of the regulations going forward. So you can mine coal. 
You won't be able to burn it. It's a very, you know, 
combustible type of atmosphere that you're producing here.
    So I think you have a huge problem here. I don't envy you 
at all, particularly with how you respond. Your intentions may 
be well. But, you know, you're overstepping your boundaries. 
And that's just like EPA on a number of aspects, they have been 
hauled into court and they have been stayed. And I would hope 
that you would learn from the mistakes, the past mistakes of 
this administration and rescind this rule. And I yield back. 
Thank you very much.
    Mrs. Lummis. [Presiding.] The chair now recognizes Ms. 
Norton for 5 minutes.
    Ms. Norton. I thank the chair. I'm sure everybody wants to 
mitigate the effects of what I understand the peer-reviewed 
studies have found. Is it true that near the sites of the 
mountain-top removal of coal mining--and this figure seems to 
me to be quite amazing. People living near those sites are 50 
percent more likely to die of cancer, and 42 percent are more 
likely to be born with defects, compared with people who do not 
live near the sites of mountain-top removal for coal mining? I 
mean those are amazing statistics. Everybody ought to move now.
    Ms. Schneider. Congresswoman, I'm not familiar with those 
particular statistics. I have been to West Virginia and seen 
the effects of mountain-top mining personally. It is a bit 
sobering what is going on down there. We continue to see very 
significant adverse effects of coal mining in those 
communities, including, most recently, a better understanding 
of conductivity and selenium impacts.
    You know, you go down there and you see, as Congressman 
Cartwright illustrated in one of his statements, I mean, the 
water is running orange in some of the areas that I've seen. 
I've seen water running white from aluminum just coming right 
out of the old mine, worked into a stream with a child in it, 
with his dog playing there. I mean, it's very sobering to see. 
And, obviously, we talk about the abandoned mine lands and----
    Ms. Norton. I would like staff to make sure that Ms. 
Schneider receives these peer-reviewed studies, because they 
seem to be--perhaps it is based on how proximate or how close 
you are. But however close you are, I've never seen such 
statistics.
    Ms. Schneider. Yeah, I would like to see those studies. 
Thank you.
    Ms. Norton. They're the scariest statistics I've ever seen 
from peer-reviewed studies. Now this stream protection rule, of 
course, is about restoration of streams and aquatic ecosystems. 
Are there adequate protections against drinking water 
contamination in particular?
    Ms. Schneider. Well, ultimately, we believe that if you 
have clean water, that you will also have cleaner drinking 
water. And so that's part of our unquantified but anticipated 
benefits as part of the rule. And what we have here are rules 
that are over 30 years old. That's what we're trying to update 
as part of our modernization process. And clearly, science and 
technology have changed over the last three decades. There are 
much more modern mining practices. And we want to make sure 
those are put into place to protect local communities.
    Ms. Norton. Let me read to you what one study that was 
published in a journal, Environmental Science and Technology, 
said, and I'm quoting from them, ``Overall, the data show that 
mitigation efforts being implemented in southern Appalachia 
coal mining are not meeting the objectives of the Clean Water 
Act to replace lost and degraded systems.'' And then another 
scientific publication says about the same thing, ``To date, 
mitigation practices and restoration efforts have not been 
effective in ameliorating water pollution from mountain-top 
removal sites.'' Are you familiar with these studies? And how 
does this rule pertain to these studies about failure to be 
effective?
    Ms. Schneider. The studies that I'm familiar with make 
similar types of findings, which is that we could be doing a 
much better job at restoring these areas. The proposed rule 
does contain provisions to address that.
    Ms. Norton. Are there any penalties for companies who fail 
to restore stream function that they have contaminated?
    Ms. Schneider. Well, most of the programs are handled at 
the State level with oversight. There are civil penalty 
provisions and other oversight mechanisms that we can use if 
the terms of permits are violated. But the States typically 
would have the first run at that.
    Ms. Norton. We are all very sensitive to jobs, particularly 
after the Great Recession. But I certainly hope these areas--
that someone in these areas is looking to not only what coal 
mining is doing to health, but to the fact that it's becoming 
less and less useful. We can't even use oil. We're not using 
coal mining. Those who are spending their time trying to save 
those jobs instead of looking for new areas to make jobs in 
such States and localities seem, to me, to be doing a grave 
disservice to the people who live there. Risking their health 
for a form of energy that is going down, down, down, and out as 
we speak, not because of hearings in the Congress but because 
of competition from other forms of energy. Thank you very much, 
Madam Chair.
    Mrs. Lummis. If Mr. Palmer has any questions, he will be 
recognized.
    Mr. Palmer. Thank you, Madam Chairman. I do have something 
that I want to say about this.
    Ms. Schneider, we've seen time and time again, this 
administration has aggressively pursued this rulemaking driven 
by political timelines and special interests with reckless 
disregard for the law and the negative impact it will have on 
the rural jobs. In the past 7 years, since 2009, the Federal 
District Court found that the administration unlawfully 
attempted to bypass the Administrative Procedure Act, when it 
proposed withdrawing the 2008 stream buffer rule.
    In 2010, OSM entered into agreements with 10 States to act 
as cooperating agencies under NEPA and then shut the States out 
of the rulemaking process for 5 years. As a result, 8 of the 10 
States terminated the agreement with OSM.
    In 2011, OSM tried to cover up the findings from one of the 
contractors who proposed, that the proposed rule would result 
in the loss of thousands of jobs, investigations by the 
Interior inspector general. And the House Natural Resources 
Committee confirmed the coverup.
    OSM ignored a bipartisan letter sent by 33 Senators asking 
that the public comment period be extended an extra 120 days in 
consideration of the thousands of pages of technical material 
related to the rule. Given this rule's checkered history, how 
can the American public have confidence in the integrity of it?
    Ms. Schneider. We are working hard to make sure that we 
have a good process, particularly on a going-forward basis. We 
have a, you know, we're reviewing the public comments now. 
There's roughly 94,000 public comments. The public comment 
period was open for approximately 3 1/2 months. We did grant an 
extension in response to the extension request as part of that 
process.
    So, you know, we are committed to making sure we have a 
good process. I am personally committed to making sure that we 
have a good process. And, you know, the responses that we've 
been getting so far, particularly from the State agencies that 
we're engaging with on a one-on-one basis, has been very 
positive. And I think we'll have good outcomes. We're getting a 
lot of good information. And we're taking all of that into 
consideration as we think about making potential adjustments to 
what has been proposed.
    Mr. Palmer. Well, I can tell you I don't have a lot of 
confidence in the rulemaking process at this time, and its 
impact that it's already had is pretty severe. If you were to 
come to Alabama and talk with some of the coal mining families 
and particularly their kids who are facing the prospect of 
Christmas this year with no presents, talking to families whose 
children are having to withdraw from college because their dad 
has lost his job in the coal mine, a job, a profession that 
they have known for 30 years. They don't know anything else.
    I mean, these are not made up stats. These are real people. 
And I tell you it breaks my heart to see what is being done to 
these rural communities, seeing what's done to these families 
who have worked hard. They have been a critical part of our 
energy infrastructure for years and years and years. And now, 
it really, at the end of their careers, losing their jobs.
    So, Ms. Schneider, with all due respect, I have some 
serious reservations about the rulemaking process.
    And, Madam Chairman, I hope that this committee will be 
engaged in the process to ensure that the rulemaking process is 
handled in a better matter. I yield the balance of my time.
    Mrs. Lummis. The chair now recognizes herself for 5 
minutes. And unless another member comes in, I'll be wrapping 
up. We've had several questions today about this inspector 
general's report that was produced in February of 2013. Are you 
aware of that report?
    Ms. Schneider. Yes. I've read the redacted version of the 
report.
    Mrs. Lummis. But not the unredacted version?
    Ms. Schneider. No.
    Mrs. Lummis. And why is that?
    Ms. Schneider. I read the redacted version of the report in 
preparation for my confirmation hearing. It had just been 
issued. And I had the opportunity to review the deputy 
inspector general testify about the report in which he found 
that there was no undue political influence with respect to the 
job numbers that were evaluated in that report. He also, as I 
recall, testified that the contractors were not fired. Rather, 
they were, their contract was not renewed. So as part of that 
confirmation process, I reviewed that material.
    Mrs. Lummis. And if that's true, then there should be no 
problem releasing the unredacted version. Because, like you, we 
have never seen the unredacted version. Can you promise today 
to release the unredacted IG's report?
    Ms. Schneider. What I can commit to you today is taking 
that request back to the Department and to work with the 
committee through the accommodations process.
    Mrs. Lummis. And the committee staff will follow up with 
you on this subcommittee's behalf to obtain a copy of the 
unredacted IG's report.
    Mrs. Lummis. Since there's such a difference of opinion 
about what transpired with regard to the job numbers, we feel 
that it would be important to clear it up by seeing the 
unredacted IG's report.
    My next question is about the process going forward. Since 
we have States that felt that the cooperating agency status 
that was afforded them was so inadequate as to not constitute 
cooperating agency status, therefore, they withdrew from the 
agreement to be cooperating agencies, the one State that 
remained, Wyoming, has acknowledged it remained only so it 
could reserve its right to litigate, not a very strong 
endorsement of the process either.
    What can be done to restore cooperating agency status with 
regard to this rule going forward in this rulemaking process?
    Ms. Schneider. Thank you for that question. We have invited 
all of the prior cooperating agencies to reengage with us as 
cooperating agencies in the future. Today, none of them have 
chosen to take us up on that. I would strongly encourage them 
to participate in that. I want to engage with them. If they're 
cooperating agencies, we have an opportunity to engage with 
them in a broader capacity.
    I mean, I have an open door policy. I was just, you know, 
the American Mining and Exploration Association just--at their 
annual meeting where I was the keynote just last week, issued a 
press report praising me on my open door policy. So I'm ready 
to listen. And I want to listen. But, you know, folks on the 
other end need to engage as well. Some have actually declined 
expressly the opportunity to engage with us. I think that's a 
shame. We're going to keep trying. I'm not going to take no for 
an answer because I think that getting this right is the most 
important thing.
    Mrs. Lummis. Would you, in doing so, be willing to suspend 
timelines for implementation or releasing a final rule so you 
would have an opportunity to garner true cooperating agency 
status from the 9 of the 10 States that withdrew from the 
process?
    Ms. Schneider. I would not be willing to suspend the 
process right now. I think that there's plenty of time in the 
process. One of the things that I've learned in the rulemaking 
process is it takes a really long time. And so I do feel that 
there's adequate time for those States to reengage. And I would 
encourage them to do so.
    Mrs. Lummis. And when do you anticipate issuing a final 
rule?
    Ms. Schneider. It's difficult to say given how much process 
we have to go through. And we're still working through the 
comments. Until we get through those comments, I would be 
reluctant to say. But I would hope sometime in late 2016. But, 
you know, it would probably be premature for me to say anything 
definitive until we get through the comments.
    Mrs. Lummis. While you're going through those 94,000 
comments, and if you had an opportunity to reach out to these 9 
of 10 States that withdrew from the process because there was 
no cooperation, it was a command and control process 
masquerading as cooperating agency status, would you reengage 
them in this process? You used the word future processes. And I 
would like to see them reengaged in this process.
    Ms. Schneider. I apologize for not being clear. I mean this 
process going forward.
    Mrs. Lummis. So while you're reviewing the 94,000 comments, 
you are willing to reengage the 9 of 10 States that chose to 
disengage because the process was not cooperating agency status 
in their minds?
    Ms. Schneider. Yes, we are. And, in fact, we're meeting 
with several of them on the rule itself.
    Mrs. Lummis. I appreciate your testimony today. I know that 
it has been challenging to get this scheduled. And it has--we 
have made several attempts. And you have been very cooperative 
in our efforts to schedule this hearing. And I want you to know 
how much I appreciate it.
    Given the fact that there are no further questions, we will 
make our final thank you to the witness for taking the time to 
be with us today. And there appearing to be no further 
business, without objection, the subcommittee stands adjourned.
    [Whereupon, at 4:00 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
               
               


                                 [all]
</pre></body></html>
